;

\q~m(e

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Stanley J. Carter - PETITIONER
vs.
Wendy Kelley. Dir. ADC - RESPONDENT(S)
PROOF OF SERVICE
I, Stanley J. Carter #111939, dojsw^ar or declare that on this date, June,

,2020,

as required by Supreme Court Rule 29, I have served the enclosed MOTION FOR LEAVE TO
PROCEED INFORMA PAUPERIS and PETITITION FOR WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope comtaihing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery to a third
-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served a|re as follows:
Honorable Leslie Rutledge-Arkansas Attorney General
323 Center Street, Suite #200
Little Rock, Ark. 72201
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June,

., 2020.

;

Q
19

